                        U.S. DEPARTMENT OF ENERGY
                       OFFICE OF INSPECTOR GENERAL




      AUDIT OF SELECTED ASPECTS OF THE UNCLASSIFIED COMPUTER
    SECURITY PROGRAM AT A DOE HEADQUARTERS COMPUTING FACILITY




The Office of Inspector General wants to make the distribution
of its reports as customer friendly and cost effective as
possible. Therefore, this report will be available electronically
through the Internet five to seven days after publication at the
alternative addresses:

          Department of Energy Headquarters Gopher
                      gopher.hr.doe.gov

      Department of Energy Headquarters Anonymous FTP
                     vm1.hqadmin.doe.gov

U.S. Department of Energy Human Resources and Administration
                          Home Page
            http://www.hr.doe.gov/refshelf.html

Your comments would be appreciated and can be provided on the
Customer Response Form attached to the Report.




Report Number:   AP-B-95D02              ADP and Technical Support Div.
Date of Issue:   July 31, 1995           Washington D.C. 20585
DDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDDD
D
REPORT NO.                U.S. DEPARTMENT OF ENERGY               RELEASE
DATE
                         OFFICE OF INSPECTOR GENERAL

AP-B-95-02                                                       July 31,
1995
_____________________________________________________________________________
_




          AUDIT OF SELECTED ASPECTS OF THE UNCLASSIFIED COMPUTER

        SECURITY PROGRAM AT A DOE HEADQUARTERS COMPUTING FACILITY




ZDDD? ZDDDDDDD?   ZDDD? ZDDDDDDD? ZDDD? ZDDDDDDD? ZDDD? ZDDDDDDD? ZDDD?
ZDDDDDDD? ZDDD?
@? ZY 3 ZDDD? 3   @? ZY 3 ZDDD? 3 @? ZY 3 ZDDD? 3 @? ZY 3 ZDDD? 3 @? ZY 3 ZDDD?
3 @? ZY
 3 3 3 3    @DY    3 3   3 3    @DY   3 3   3 3    @DY   3 3   3 3    @DY   3 3   3 3
@DY 3 3
 3 3 3 3 ZDD?      3 3   3 3   ZDD?   3 3   3 3   ZDD?   3 3   3 3   ZDD?   3 3   3 3
ZDD? 3 3
 3 3 3 3 @? 3      3 3   3 3   @? 3   3 3   3 3   @? 3   3 3   3 3   @? 3   3 3   3 3   @?
3 3 3
ZY @? 3 @DDDY 3   ZY @? 3 @DDDY 3 ZY @? 3 @DDDY 3 ZY @? 3 @DDDY 3 ZY @? 3 @DDDY
3 ZY @?
@DDDY @DDDDDDDY   @DDDY @DDDDDDDY @DDDY @DDDDDDDY @DDDY @DDDDDDDY @DDDY
@DDDDDDDY @DDDY
IMMM; IMMMMMMM;   IMMM; IMMMMMMM; IMMM; IMMMMMMM; IMMM; IMMMMMMM; IMMM;
IMMMMMMM; IMMM;
H; I< : IMMM; :   H; I< : IMMM; : H; I< : IMMM; : H; I< : IMMM; : H; I< : IMMM;
: H; I<
 : : : :    HM<    : :   : :    HM<   : :   : :    HM<   : :   : :    HM<   : :   : :
HM< : :
 : : : : IMM;      : :   : :   IMM;   : :   : :   IMM;   : :   : :   IMM;   : :   : :
IMM; : :
 : : : : H; :      : :   : :   H; :   : :   : :   H; :   : :   : :   H; :   : :   : :   H;
: : :
I< H; : HMMM< :   I< H; : HMMM< : I< H; : HMMM< : I< H; : HMMM< : I< H; : HMMM<
: I< H;
HMMM< HMMMMMMM<   HMMM< HMMMMMMM< HMMM< HMMMMMMM< HMMM< HMMMMMMM< HMMM<
HMMMMMMM< HMMM<
IMMM; IMMMMMMM;   \\\\\ \\\\\\\\\ IMMM; IMMMMMMM; IMMM; IMMMMMMM; IMMM;
IMMMMMMM; IMMM;
H; I< : IMMM; :   _[[[_ [[[___[[[ H; I< : IMMM; : H; I< : IMMM; : H; I< : IMMM;
: H; I<
 : : : :    HM<    [[[   [[[    ___   : :   : :    HM<   : :   : :    HM<   : :   : :
HM< : :
 : : : : IMM;      [[[   [[[   \\\\   : :   : :   IMM;   : :   : :   IMM;   : :   : :
IMM; : :
 : : : : H; :      [[[   [[[   _[[[   : :   : :   H; :   : :   : :   H; :   : :   : :   H;
: : :
I< H; : HMMM< :   \[[[\ [[[\\\[[[ I< H; : HMMM< : I< H; : HMMM< : I< H; : HMMM<
: I< H;
HMMM< HMMMMMMM<   _____ _________ HMMM< HMMMMMMM< HMMM< HMMMMMMM< HMMM<
HMMMMMMM< HMMM<




     AUDIT OF SELECTED ASPECTS OF THE UNCLASSIFIED COMPUTER
   SECURITY PROGRAM AT A DOE HEADQUARTERS COMPUTING FACILITY


                           TABLE OF CONTENTS


                                                                     Page

                SUMMARY ....................................           1

  PART I    -   APPROACH AND OVERVIEW ......................           2

                Introduction ...............................           2

                Scope and Methodology ......................           2

                Background .................................           3

                Observations and Conclusions ...............           4

  PART II   -   FINDING AND RECOMMENDATIONS ................           6

                Unclassified Computer Security Program at
                a DOE Headquarters Computing Facility ......           6
PART III D   MANAGEMENT AND AUDITOR COMMENTS ............   13
                     U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES



     AUDIT OF SELECTED ASPECTS OF THE UNCLASSIFIED COMPUTER
   SECURITY PROGRAM AT A DOE HEADQUARTERS COMPUTING FACILITY


Audit Report Number:   AP-B-95-02


                             SUMMARY

     The purpose of this audit was to evaluate the effectiveness
of the unclassified computer security program at the Germantown
Headquarters Administrative Computer Center (Center). The
Department of Energy (DOE) relies on the application systems at
the Germantown Headquarters Administrative Computer Center to
support its financial, payroll and personnel, security, and
procurement functions. Our review was limited to an evaluation
of the administrative, technical, and physical safeguards
governing utilization of the unclassified computer system which
hosts many of the Department's major application systems.

     Our audit identified weaknesses in the Center's computer
security program that increased the risk of unauthorized
disclosure or loss of sensitive data. Specifically, we found
that (1) access to sensitive data was not limited to individuals
who had a need for the information, and (2) accurate and complete
information was not maintained on the inventory of tapes at the
Center. Furthermore, the risk of unauthorized disclosure and
loss of sensitive data was increased because other controls, such
as physical security, had not been adequately implemented at the
Center.

     Management generally agreed with our audit conclusions and
recommendations, and initiated a number of actions to improve
computer security at the Center.



                              PART I

                       APPROACH AND OVERVIEW


INTRODUCTION

     The Department relies on the application systems at the
Center to support its financial, payroll and personnel, security,
and procurement functions. At the time of our audit fieldwork,
the Center was managed and operated by The Office of Information
Technology Services and Operations (ITSO). In November 1994,
subsequent to the completion of our fieldwork, ITSO's computer
security functions were transferred to the Systems Engineering
Group under the Deputy Assistant Secretary for Information
Management.

     The objective of our audit was to evaluate the effectiveness
of the unclassified computer security program at the Center.
Specific objectives included determining whether (1) computer
security procedures and practices adequately protected sensitive
data from unauthorized disclosure or loss, and (2) a contingency
plan had been developed that provided reasonable assurance of the
continuity of data processing support should events occur that
prevent normal operations.

SCOPE AND METHODOLOGY

     The audit was performed primarily at Departmental facilities
in Germantown, Maryland, with most of our fieldwork conducted
between February 1994 and October 1994. Our review was limited
to an evaluation of the administrative, technical, and physical
safeguards governing utilization of the unclassified IBM computer
system which hosts many of the Department's major application
systems. A separate report will be issued on controls for the
classified system at the Center.

     We examined (1) ITSO's plans and procedures for protecting
unclassified sensitive data and operations, and (2) reports by
the Office of Security Evaluations and the Office of Information
Resource Management Policy, Plans, and Oversight. We interviewed
program managers and staff in Departmental Headquarters to
discuss the adequacy of computer security controls, monitoring,
and training. We also inspected ITSO's contractor-operated
backup media storage facility and interviewed contractor and ITSO
personnel to discuss security and contingency issues.

     The audit was performed according to generally accepted
Government auditing standards for performance audits and included
tests of internal controls and compliance with laws and regula-
tions to the extent necessary to meet the objectives of the
audit. We assessed the significant internal controls with
respect to the unclassified security program at the Center. Our
assessment consisted of reviewing the administrative, technical,
and physical safeguards governing use of the unclassified IBM
computer system. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that
may have existed at the time of our audit.

    An exit conference was held with management officials from
the Office of Information Management on May 16, 1995.

BACKGROUND

     The Office of Information Technology Services and Operations
(ITSO), under the Deputy Assistant Secretary for Information
Management, has responsibility for managing and operating the
Headquarters classified and unclassified computer-based data
processing facilities, including the Center. Its functions
include (1) identifying mission-supportive information processing
opportunities for DOE Headquarters offices, (2) managing
information technology resource planning for DOE Headquarters,
and (3) developing and maintaining DOE-wide classified and
unclassified information systems under the responsibility of
Headquarters organizations. In November 1994, subsequent to the
completion of our fieldwork, ITSO's computer security functions
were transferred to the Systems Engineering Group under the
Deputy Assistant Secretary for Information Management.

     The Center is the Department's central administrative
processing facility. According to ITSO's October 1994 records,
the Center had computer processing equipment with an estimated
cost of about $6.6 million. At the Center, ITSO operates three
IBM computers that service the administrative computing needs of
the Department's Headquarters and field users nation-wide. One
computer is used for processing many of the Department's mission-
essential application systems. Another is used to support a
large number of users with file transfer, electronic mail, and
scheduling functions. The third computer is used for processing
classified data. The Center also has Hewlett-Packard computers
which support the processing of accounting and financial data.

     According to ITSO, about 3,600 users, of which 45 percent
were contractors, were provided access to the IBM computer system
dedicated to processing the Department's mission-essential
applications. These users can access the applications on the
unclassified system through dial-up or hardwired terminals. In
addition to providing computer processing time, ITSO offers other
end-user computing services, including computer training and
microcomputer repair.

     The following major Department application systems were
processed on the unclassified system at the Center.

      o   The Financial Information System (FIS), which is the
          official source of consolidated financial information
          for the Department;

      o   The DOE Integrated Payroll/Personnel System (PAY/PERS),
          which supports both personnel and payroll activities
          throughout the Department;

      o   The DOE Integrated Security System (DISS), which
          provides tracking capabilities for security clearances,
          visitor information for DOE facilities, and security
          badge accountability;

      o   The Energy Manpower Personnel Resource Information
          System, which supports the Department's human resource
          management and manpower resource planning, budgeting,
          and accounting activities; and

      o   The Procurement and Assistance Data System, which
          provides the Assistant Secretary for Human Resources and
          Administration with the ability to track and report on
          procurement and assistance actions throughout the
          Department.
     ITSO had employed various tools and techniques to manage the
Center. As part of its computer security program, security soft-
ware was installed on the IBM computer processing the Depart-
ment's major application systems. Through use of the security
software, ITSO had implemented two measures--user identifications
(userid) and passwords--intended to protect these applications
from unauthorized access, fraud, and abuse. In addition, a tape
management system was installed to manage and report on magnetic
media (i.e., tape reels and cartridges). In May 1992, ITSO
conducted a risk analysis of the Center. In November 1992, ITSO
developed a disaster recovery plan intended to identify the
mission essential applications that should be maintained if the
Center's operations were unexpectedly interrupted.

OBSERVATIONS AND CONCLUSIONS

     Weaknesses existed in the computer security program at the
Center that increased the risk of unauthorized disclosure or loss
of sensitive data. Specifically, we found that (1) access to
sensitive data was not limited to individuals who had a need for
the information, and (2) accurate and complete information was
not maintained on the inventory of tapes at the Center. Further-
more, the risk of unauthorized disclosure and loss of sensitive
data was increased because other controls, such as physical
security, had not been adequately implemented at the Center. For
example, a disaster recovery plan had not been fully implemented
to mitigate the consequences caused by an unexpected loss of
computer systems and data that support critical Department
operations.

     These weaknesses existed because ITSO had not fully
performed an assessment of risk at the Center and the controls in
place to mitigate these risks, and computer security officers did
not adequately monitor activities on the unclassified computer
system in accordance with computer security requirements. The
weaknesses in general controls over computer security of the
Center's unclassified system increased the risk of unauthorized
disclosure and/or loss of sensitive data, and diminished the
reliability of the Department's financial management information
that resides at the Center.

     During our audit, positive steps were taken to improve the
unclassified computer security program at the Center. Management
took action to (1) reduce the number of user accounts with broad
access privileges and (2) validate access to tape data sets
through implementation of the security software feature.
Controls were instituted to ensure that the tape management
system accurately reflected the disposition of magnetic media.
In addition, management took action to reduce the number of
persons who had unrestricted physical access to the Center,
including the tape library housing sensitive data.

     Individually, the computer security weaknesses identified in
this report may not represent material deficiencies in the
Center's computer security program. However, when considered
together, they represent internal control weaknesses that should
be considered by management when preparing its yearend assurance
memorandum on internal controls.
                              PART II

                       FINDING AND RECOMMENDATIONS

               Unclassified Computer Security Program at a
                   DOE Headquarters Computing Facility

FINDING

     An effective computer security program requires the
development and implementation of adequate controls to ensure
that sensitive data processed on computer systems is protected
from unauthorized disclosure and/or loss and that potential risks
relating to this data are identified and mitigated to the extent
practical. Weaknesses existed in the Center's unclassified
computer security program that increased the risk of unauthorized
disclosure or loss of sensitive data. These weaknesses occurred
because (1) ITSO had not fully performed an assessment of risks
on the unclassified computer system and the controls in place to
mitigate those risks, and (2) computer security officers did not
adequately monitor activities on the unclassified computer system
in accordance with computer security requirements. Weaknesses in
general controls over the computer security of the Department's
unclassified system increased the risk of unauthorized disclosure
and/or loss of sensitive data, and diminished the reliability of
the Department's financial information.

RECOMMENDATIONS

     We recommend that the Deputy Assistant Secretary for
Information Management:

     1.   Conduct a comprehensive risk analysis of the Center to
          assess the unclassified system's unique risks, as well
          as the adequacy of the administrative, technical, and
          physical controls to mitigate those risks and to protect
          sensitive data.

     2.   Ensure that security officers monitor activities on the
          unclassified system and in the program, and take
          appropriate actions to bring the program into compliance
          with sound data processing practices, especially to

          a.   limit access authorization for the unclassified
               computer system to only those computer programs and
               data that individuals need to perform their duties
               and periodically review these authorizations to
               ensure that they remain appropriate;

          b.   reflect the accurate location and disposition of
               magnetic media in the tape management system;

          c.   document changes to operating system software;

          d.   provide adequate physical security safeguards to
              limit access to computing resources and protect
              against fire; and

         e.   fully implement an up-to-date disaster recovery plan
              for the Center to mitigate the consequences caused
              by an unexpected loss of use of computer systems and
              data.

MANAGEMENT REACTION

     Management agreed, in principle, with our audit finding and
recommendations, and identified actions planned or implemented to
improve computer security at the Center. See Part III of this
report for further discussion of management's comments.

                       DETAILS OF FINDING

GUIDANCE FOR COMPUTER SECURITY

     An effective computer security program requires the
development and implementation of adequate controls to ensure
that sensitive data processed on computer systems is protected
from unauthorized disclosure and/or loss, and that potential
risks relating to this data are identified and mitigated to the
extent practical. Guidance on the controls to be implemented by
Federal and Departmental organizations are set forth in various
documents issued by the Congress, the National Institute of
Standards and Technology (NIST), the Office of Management and
Budget (OMB), and the Department.

      The Computer Security Act of 1987 (Public Law 100-235) was
passed by the Congress to improve security over sensitive Federal
computer systems. The Act assigns responsibility to NIST for
developing standards and guidelines needed to ensure the
cost-effective security and privacy of sensitive information in
Federal computer systems. NIST has issued Federal Information
Processing Standards (FIPS Pubs) as guidance to Federal agencies
in the management and security of Federal automated information
systems. FIPS Pubs containing guidance for computer security
issues include FIPS Pub 31, "Guidelines for Automatic Data
Processing Physical Security and Risk Management," issued June
1974; FIPS Pub 65, "Guidelines for Automatic Data Processing Risk
Analysis," issued August 1, 1979; FIPS Pub 73, "Guidelines for
Security of Computer Applications," issued June 30, 1980; FIPS
Pub 87, "Guidelines for ADP Contingency Planning," issued March
27, 1981; and FIPS Pub 112, "Password Usage," issued May 30,
1985.

     OMB Circular A-130, Appendix III, "Security of Federal
Automated Information Systems," establishes a minimum set of
controls to be included in Federal automated information systems
security programs. This Circular states that agencies shall
assure an adequate level of security for all agency information
systems, whether maintained in-house or commercially, and shall
implement and maintain a computer security program, including the
preparation of policies, standards, and procedures. OMB Bulletin
90-08, "Guidance for Preparation of Security Plans for Federal
Computer Systems That Contain Sensitive Information," also
provides guidance to Federal agencies on computer security
planning activities required by the Computer Security Act of
1987.

     Departmental policies and procedures governing unclassified
computer security are addressed in DOE Order 1360.2B,
"Unclassified Computer Security Program." This Order establishes
requirements, policies, responsibilities, and procedures for
developing, implementing, and sustaining an unclassified computer
security program. For example, the Order states that DOE
managers are required to designate an individual to be the
Computer Protection Program Manager (CPPM). The CPPM may
designate assistant CPPMs to accomplish specific security
responsibilities. The Order further states that the CPPM shall
implement and administer a management control process to ensure
that appropriate administrative, technical, physical, and
personnel protection measures are incorporated into all new and
operational unclassified computer systems. The Order also states
that the CPPM shall develop and implement procedures establishing
controls designed to prevent misuse and abuse of unclassified
computer resources.

WEAKNESSES IN THE COMPUTER SECURITY PROGRAM AT THE CENTER

      Weaknesses existed in the Center's unclassified computer
security program that increased the risk of unauthorized
disclosure or loss of sensitive data. Specifically, we found
that (1) access to sensitive data was not limited to individuals
who had a need for the information, and (2) accurate and complete
information was not maintained on the inventory of tapes at the
Center. Other controls, such as physical security, had not been
adequately implemented to protect sensitive data and computing
resources.

System Access

     ITSO's computer security program did not ensure that access
to sensitive data was limited to individuals who had a need for
the information. Specifically, we found that:

     o   Computer support personnel had broad system access
         privileges which allowed them access to operating and
         application system files, as well as sensitive data sets.
         Such broad access privileges exceeded that which the
         individuals typically needed to perform their job
         functions, and increased the risk that an individual
         could copy, modify, or destroy any data set in the
         system, or create or change access rules and execute
         restricted programs.

     o   Non-unique identifiers were established that allowed
         unlimited access to the unclassified system. Such broad
         access through non-unique identifiers increased the risk
         that an individual could copy, modify, or destroy any
         data set in the system, or access restricted programs
         without being detected and having their access privilege
             revoked.

        o    Terminated contractor employees maintained access
             privileges.

        o    Access privileges were maintained for inactive user
             accounts that had not been accessed in over 6 months.

        o    Individuals were using other people's passwords for
             convenience.

     We found that technical safeguards were not in place that
would lessen the risk of unauthorized disclosure of sensitive
data. Access to data sets on tape was not validated by the
security software. Batch jobs did not have to be validated by
the security software to ensure that the user was authorized to
carry out this function. Users were also allowed to enter the
system through batch processing without providing a password.

Tape Management

     ITSO did not maintain accurate and complete information on
the inventory of tapes at the Center. As of March 7, 1995, the
Center's tape management system showed there were about 14,500
reels of tape. However, we observed on March 8, 1995, that the
Center had only approximately 1,900 reels of tape in its inven-
tory. According to Center personnel, (1) the tape management
system was not being modified to reflect the degaussing and
destruction of tapes; (2) documentation was not being maintained
on destroyed tapes; and (3) there was no formal inventory
performed of tapes.

Other Controls

      Other controls had not been adequately implemented at the
Center. These conditions increased the risk of unauthorized
disclosure and/or loss of sensitive data. Specifically, we found
that:

    o       Weaknesses existed in the management and use of the
            computer operating system. An ITSO official acknowledged
            that they did not fully document the changes made to
            system software. In the operating system, we identified
            19 commands and 5 programs that were unrecognized on the
            listing of authorized operating system entries. Authori-
            zation for operating system commands and programs is
            critical because entries can be used to bypass system
            validity checks and security.

    o       Physical security measures did not adequately limit access
            to computing resources or fully protect against fire.
            Contrary to Federal guidance, various persons who should
            not have had access to the tape library held card keys,
            including sixteen systems programmers. Although the room
            adjacent to the Center was used to store combustible
            materials such as paper and office supplies, it did not
            have a smoke detection system.
    o   Although ITSO had a disaster recovery plan, it had not
        been fully implemented to mitigate the damaging potential
        consequences caused by the unexpected loss of use of
        computer systems and data that support critical Depart-
        mental operations. Backup tapes for all data and programs
        necessary to continue operations were not maintained at an
        offsite storage facility. In its November 1992 disaster
        recovery plan, ITSO designated 14 application systems as
        "mission-essential." According to ITSO records, backup
        tapes were stored off-site for only 6 of these applica-
        tions. Furthermore, a complete set of documentation for
        each mission critical application was not kept in an
        off-site storage facility in order to facilitate its
        retrieval in case of need. In September 1994, ITSO
        negotiated a formal agreement for disaster recovery
        services for its mainframe and minicomputers. According
        to management, a test of the plan will be conducted in
        September 1995 to ensure that appropriate steps have been
        taken to provide for contingency operations should the
        Center be unable to operate.

     We also noted that computer operator intervention was not
restricted during the operating system initialization process.
The acting Center manager told us that computer operator
intervention was needed to facilitate proper maintenance of the
Center's computers. However, he agreed that the risk of
inappropriate activity could be reduced by reviews of the access
activities of these employees.

%PAGES
REASONS FOR WEAKNESSES IN THE COMPUTER SECURITY PROGRAM

     The weaknesses in the computer security program at the
Center occurred because (1) ITSO had not fully performed an
%PAGEE
assessment of risks on the unclassified computer system and the
controls in place to mitigate those risks, and (2) computer
security officers did not adequately monitor activities on the
unclassified computer system in accordance with computer security
requirements.

Security Planning

     ITSO had not fully performed an assessment of the risk of
unauthorized disclosure or loss of sensitive data and the
controls in place to mitigate such risks on the unclassified
system. DOE Order 1360.2B, "Unclassified Computer Security
Program," requires that the applicable Computer Protection
Program Manager formulate a computer protection plan. The plan
must be kept current and include certain elements, such as (1) a
summary of the management control process describing the admini-
strative, technical, and personnel safeguards employed at the
site; (2) reference to lists that identify unclassified computer
applications that process sensitive information, the owners of
such applications, and the unclassified computer systems which
provide processing support; and (3) reference to schedules
indicating planned and completed risk assessments.

     Although ITSO had developed a computer protection plan, it
had not conducted a comprehensive risk assessment of the
unclassified system in order to identify the unique risks that
existed with the system. Furthermore, the plan did not
adequately cover the technical and physical safeguards employed
to mitigate these unique risks and protect the sensitive data at
the Center.

Security Management

     Officials assigned to carry out computer security functions
were not adequately monitoring activities on the unclassified
computer system at the Center. The Headquarters' Computer
Protection Plan assigns responsibility to the CPPM for developing
and managing the Headquarters computer protection program.
Assistant CPPMs are assigned to assist the CPPM in implementing
the program. The Plan required security officers to ensure the
implementation of a continuous audit, monitoring and review
process to identify waste, fraud, abuse and unauthorized activity
in the access and use of computer resources.

    While a review process was implemented, it was not sufficient
for monitoring activities on the unclassified system. The formal
report on system activities highlighted unsuccessful attempts to
access the system. However, security officials told us that they
did not routinely conduct formal monitoring or reporting of
system activities, such as reviewing the actions of individuals
granted broad system access privileges.

%PAGES
IMPACT OF WEAKNESSES

     Weaknesses in general controls over the computer security of
the Department's unclassified system increased the risk of
%PAGEE unauthorized disclosure and/or loss of sensitive data and
diminished the reliability of the Department's financial
management information. In particular, the access allowed for
terminated contract employees and the existence of non-unique
identifiers on the unclassified system heightened the opportunity
for unauthorized use, and diminished security officers' ability
to identify who had gained access to what data. Additionally,
the inaccurate accounting for tapes increased the opportunity for
loss of data. Computer operations were also at risk because ITSO
had not taken the steps to ensure that computer support for
critical mission activities could be continued should disasters
or major service disruptions occur.

     Individually, the computer security weaknesses identified in
this report may not represent material deficiencies in the
Center's computer security program. However, the weaknesses
identified, collectively, provide an environment in which
individuals could exploit those weaknesses to obtain unauthorized
access to sensitive data, including that for many of the Depart-
ment's major financial management systems.
                             PART III
                      MANAGEMENT AND AUDITOR COMMENTS

     Management agreed, in principle, with our audit finding and
recommendations, and identified corrective actions planned or
implemented to improve computer security at the Center.

Recommendation 1.

     Management Comments. Management indicated that a risk
assessment, as defined by DOE Order 1360.2B, was performed on the
computer installation of which the unclassified processor is a
part. Because of their co-location, management believed that the
unclassified processors enjoyed a majority of the same admini-
strative, technical, and physical controls afforded to the
classified processor. However, a risk assessment will be
performed of the unclassified system as part of the process of
reaccreditation of the classified processor. This process will
include a review of physical security controls, technical
safeguards and administrative controls as these pertain to the
unclassified operating system based environment, and should be
completed by December 1995.

     Auditor Comments.     Management's comments are responsive to
our recommendation.

Recommendation 2.a.

     Management Comments. Management identified a number of
actions planned or taken to improve system access controls. The
number of user accounts with broad access privileges has been
reduced, and access to tape data sets through implementation of
the security software feature is now validated. Also, a process
of removing generalized, non-privileged access to the
unclassified processors, where an access ID has not been used for
15 consecutive months, will be initiated. This process will be
fully operational by October 1995. Management further stated
that a refined access monitoring and reporting is currently being
engineered. This process will concentrate on monitoring and
reporting the data access of the personnel with privileged access
authorities. This refined monitoring and report process should
be fully operational by November 1995. Management also noted
that users of the unclassified processors will be reminded
annually that the use of their access ID and password combination
should be controlled and not shared with other users.

     Auditor Comments.     Management's comments are responsive to
our recommendation.

%PAGES
Recommendation 2.b.

     Management Comments. Management     indicated that a number of
actions have been planned or taken to    improve the tape management
%PAGEE
system. In June 1995, the system was     modified to clearly
identify the disposition of destroyed    tapes. An engineering
effort, scheduled for completion by August 1995, is being
performed to affect the recording within the tape management
system of the media stored offsite. Also, an inventory
methodology, based upon exceptions, will be developed and fully
operational by October 1995. This methodology will employ
controls within both the "Tape Robotics and Tape Management
Systems" to report discrepancies between the media stored
offsite, the locations of all known media and any differences
(i.e., missing media) between these two known entities.

     Auditor Comments.   Management's comments are responsive to
our recommendation.

Recommendation 2.c.

     Management Comments. In its comments, management stated
that several locally authorized and developed commands as well as
utility functions had been introduced into the operating system.
These commands and utility functions will be fully identified and
documented by December 1995. Management also stated that other
specific anomalies within the operating system will be evaluated
for their effect on computer security and corrected as necessary
to reinforce computer security controls.

     Auditor Comments. Management's comments on planned actions
appear to be responsive to our recommendation.

Recommendation 2.d.

     Management Comments. In its comments, management expressed
the belief that the Center is adequately protected against fire
and has limited physical access due to the safeguards and
countermeasures employed for the classified processor. However,
in April 1995, management took action to request a smoke detector
for the room, which was used to store combustible materials,
adjacent to the Center. In June 1995, management completed a
review of the current card key system to ensure that individuals
with physical access needed such access in order to carry out
their duties and responsibilities. Subsequent action was taken
to reduce the number of individuals with unrestricted access to
the Center.

     Auditor Comments. Management comments on actions taken are
responsive to our recommendation.

%PAGES
Recommendation 2.e.

     Management Comments. In its comments, management noted that
the Center had a disaster recovery plan which addressed the
%PAGEE
issues raised in our report, and that the plan was continually in
the process of being updated. They also pointed out that a con-
tract was initiated in September 1994 to provide "hot site"
disaster recovery services from a contractor. According to
management, this plan will be tested in September 1995.
Management stated that they are "partnering" with the owners of
the fourteen "mission essential" application systems to obtain
their participation in disaster recovery preparedness. In
addition, every attempt will be made to have backup files and
documentation for all the "mission essential" application systems
in effect by January 1, 1996.

     Auditor Comments. Management's comments are responsive to
our recommendation. We have also amended our report to reflect
the awarding of a contract for a "hot-site".

                                                        IG Report No. AP-B-95-02


                        CUSTOMER RESPONSE FORM

     The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make
our reports as responsive as possible to our customers'
requirements, and therefore ask that you consider sharing
your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions
if they are applicable to you:

     1.   What additional background information about the se-
lection, scheduling, scope, or procedures of the audit
or inspection would have been helpful to the reader in
understanding this report?

     2.   What additional information related to findings and
recommendations could have been included in this report
to assist management in implementing corrective ac-
tions?

     3.   What format, stylistic, or organizational changes might
have made this report's overall message more clear to
the reader?

     4.   What additional actions could the Office of Inspector
General have taken on the issues discussed in this
report which would have been helpful?

     Please include your name and telephone number so that we may
contact you
should we have any questions about your comments.

     Name                                        Date

     Telephone                                   Organization

     When you have completed this form, you may telefax it to the
Office of Inspector General at (202) 586D0948, or you may
mail it to:

            Office of Inspector General (IG-1)
            Department of Energy
            Washington, D.C. 20585
          ATTN: Customer Relations

     If you wish to discuss this report or your comments with a
staff member of the Office of Inspector General, please
contact Rob Jacques at (202) 586D3223.
